i
I

2311 Douglas Street CC Le ga 1 Brie fs E-Mail Address:

Omaha, Nebraska 68102-1214 Est 193 contact@cocklelegalbriefs.com
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

FREDERICK M. WEBER,
Petitioner,
Vv.
STATE OF OHIO,
Respondent.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), | certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 4791 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 21st day of May, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

A GENERAL MOTARY-State of Nebraska & Chk
RENEE J. GOSS 9. ¢ decd case ‘

 

My Comm. Exp. September 5, 2023

 

Notary Public Affiant

40986
